Case: 19-10573

Document: 00515655921

Page: 1

Date Filed: 12/01/2020

tHmteti States Court of Appeals
for tfje Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 19-10573

December 1,2020

CONSOLIDATED WITH

Lyle W. Cayce
Clerk

No. 19-10782
Summary Calendar

Christopher Wooten,
Plaintiff—Appellant,
versus
Stan Parker, Howard County Sheriff-,
Timothy D. Yeats, Howard County Judge, 118th District-,
Colleen Barton, Howard County District Clerk-,
FNU Averett, Howard County Deputy Sheriff-,
FNU Buchanan, Howard County Deputy Sheriff-,
Robert H. Moore, III, Judge-,
Timothy Green, Magistrate, Howard County,
FNU Green, Judge, Howard County,
Defendants—Appellees.

Appeals from the United States District Court
for the Northern District of Texas
No. 1:17-CV-12

Case: 19-10573

Document: 00515655921

Page: 2

Date Filed: 12/01/2020

No. 19-10573
No. 19-10782
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Christopher Wooten, Texas prisoner # 2089854, appeals the dismis­
sal without prejudice, under Federal Rule of Civil Procedure 41(b), of his
42 U.S.C. § 1983 complaint and the denial of his postjudgment motion under
Federal Rule of Civil Procedure 60(b). We review both for abuse of discre­
tion. See Coleman v. Sweetin, 745 F.3d 756, 766 (5th Cir. 2014); Wilson v.
Johns-Manville Sales Corp., 873 F.2d 869, 871 (5th Cir. 1989).
On appeal, Wooten primarily realleges the substantive claims that he
asserted in his § 1983 complaint. He does not discuss the application of
Rule 41(b) or otherwise meaningfully address the reasons why his complaint
was dismissed or his Rule 60(b) motion was denied. Though we review pro se
briefs with the benefit of liberal construction, see Haines v. Kerner, 404 U.S.
519, 520 (1972), even pro se litigants must brief their arguments to preserve
them, see Yohey v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1993); Brinkmann
v. Dali Cnty. Deputy Sheriff Abner, 813 F.2d 744,748 (5th Cir. 1987). By not
identifying an error in the disposition of his § 1983 complaint or Rule 60(b)
motion, Wooten has abandoned any claim related to those rulings. See Yohey,
985 F.2d at 224-25; Brinkmann, 813 F.2d at 748.
Thus, the judgment is AFFIRMED. Wooten’s motion for appoint­
ment of counsel is DENIED because he has not demonstrated exceptional
circumstances. See Naranjo v. Thompson, 809 F.3d 793, 799 (5th Cir. 2015).

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this opin­
ion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

2

Case: 19-10573

Document: 00515738485

Page: 1

Date Filed: 02/09/2021

QKnitet) States Court of Appeals
for tfje Jftftf) Circuit
No. 19-10573
CONSOLIDATED WITH

No. 19-10782
Summary Calendar

Christopher Wooten,
Plaintiff—Appellant,
versus
Stan Parker, Howard County Sheriff-,
Timothy D. Yeats, Howard County Judge, 118th District-,
Colleen Barton, Howard County District Clerk-,
FNU Averett, Howard County Deputy Sheriff-,
FNU Buchanan, Howard County Deputy Sheriff-,
Robert H. Moore, III, Judge;
Timothy Green, Magistrate, Howard County,
FNU Green, Judge, Howard County,
Defendants—Appellees.

Appeals from the United States District Court
for the Northern District of Texas
No. 1:17-CV-12

ON PETITION FOR REHEARING EN BANC
(Opinion 830 F. App’x 443 (5th Cir. Dec. 1, 2020))

Case: 19-10573

Document: 00515738485

Page: 2

Date Filed: 02/09/2021

No. 19-10573
No. 19-10782

Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:
Treating the petition for rehearing en banc as a petition for panel
rehearing, the petition for panel rehearing is DENIED. No member of the
panel or judge in regular active service having requested that the court be
polled on rehearing en banc (Fed. R. App. P. 35; 5th Cir. R. 35), the
petition for rehearing en banc is DENIED.

Case l:17-cv-00012-BU Document 36 Filed 04/16/19

Page 1 of 3 PagelD 230

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
CHRISTOPHER WOOTEN,
TDCJ ID No. 02089854,
Plaintiff,
v.
FNU PARKER,
Sheriff, Howard County, Texas, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

as\- <.c.« ‘.k:..cTCi>u?;i
, c«:r. of rx

mm

2019APR 16 PH 3:53

36PUTY6LE

CIVIL ACTION NO.
1:17-CV-012-BL

Assigned to U.S. Magistrate Judge

ORDER OF DISMISSAL
This case remains before the Court for review of inmate/plaintiff Christopher B. Wooten’s
civil suit under the screening provision of 28 U.S.C. §§ 1915A and 1915(e)(2)(B). As previously
recounted in several orders (docs. 11,22) plaintiff Christopher Wooten routinely sought to supply
partial amended and supplemental pleadings in this case. The Court explained on different occasions
that the Court would not engage “numerous partial pleadings” and directed Wooten to file one final
amended complaint. (Doc. 22). Although Wooten did so by filing a final amended complaint (doc.
25), he then once again subsequently sought to supplement the final amended complaint. Mot.
Supplement (doc. 27). The Court accommodated Wooten in that instance by noting that it would
consider his additional claims against defendant Howard County, Texas, as a supplement to the final
amended complaint. (Doc. 29).
After review of the final amended complaint as supplemented, the Court determined that it
needed Wooten to supply answers to particular questions about his claims through the filing of a

1PlaintiffChristopher Wooten filed a consent to proceed before a magistrate judge in all proceedings
under 28 U.S.C. § 636(b). (Doc. 10). Therefore, because Wooten is presently the only party before the Court,
this magistrate judge can resolve this case under 28 U.S.C. § 636(c).

Case l:17-cv-00012-BU Document 36 Filed 04/16/19

Page 2 of 3 PagelD 231

more definite statement. The Court’s order directed Wooten to file one stand alone pleadings entitled
“Plaintiffs More Definite Statement” with the clerk of Court to include answers to ten distinct
questions with several sub-parts. Order for MDS (doc. 30). The order also included the directive that
“failure to timely and completely comply with this order may result in the dismissal of Plaintiff s
claims for lack of prosecution without further notice.” Order for MDS (doc. 30).
Rather than comply with that order, Wooten has filed three separate documents. The first 25page document, filed on December 4,2018, is entitled “Plaintiff s More Definite Statement.” (Doc.
31). Review of that document shows that it includes legal argument and citations interwoven with
Wooten’s answers to the questions in the Court’s order. (Doc. 31). Consistent with his voluminousfiling history, Wooten also included for filing a separate document on that same date, also entitled
“Plaintiff More Definite Statement.” (Doc. 32). This time, the document consists of 48 pages, many
of them the same as already included in document 32, along with new substantive pages, exhibits,
and portions of Wooten’s prior pleading. (Doc. 32). Then, not satisfied with those burdensome
documents, Wooten filed yet another pleading on December 12, 2018, entitled “Supplemental
Exhibits and U.S. Supreme Ct. Citation to Plaintiffs More Definite Statement.” (Doc. 33). This
document includes multiple citations to legal authority allegedly in support of one of Wooten’ s
claims. (Doc. 33).
As noted above, this Court warned Wooten that the failure to file one pleading entitled
“Plaintiffs More Definite Statement” could result in the dismissal of his claims for lack of
prosecution without further notice, with citation to Federal Rule of Civil Procedure 41(b). Wooten
failed to comply by overwhelming the Court with unnecessary and voluminous documents. By doing
so, Wooten is once again attempting to require the Court to consider multiple pleadings (multiple

-2-

Case l:17-cv-00012-BU Document 36 Filed 04/16/19

Page 3 of 3 PagelD 232

different “More Definite Statements”) in spite of the Court’s numerous warnings that it could not
consider piecmeal pleadings, and in spite of the warning that the case was subject to dismissal unless
Wooten filed one responsive more definite statement. Based upon the history and warnings given
to Wooten on a number of instances in this case, and Wooten’s knowledge of the risk of filing
frivolous pleadings from admonishments in another case,2 this Court need not further engage an
attempt to discern Wooten’s claims from these non-responsive documents. The Court finds and
concludes that no lesser sanction than dismissal for lack of prosecution is warranted.
It is therefore ORDERED that this case is DISMISSED without prejudice under Federal
Rule of Civil Procedure 41(b).
SO ORDERED.
SIGNED April /£ .2019.

eTscottfrost
UNITED STATES MAGISTRATE JUDGE

2Christopher Wooten also has pending before this division a petition for writ of habeas corpus under
28U.S.C. § 2254. See Wootenv. Davis, No. 1:17-CV-118-C.In that proceeding,relatedly, Wooten has been
admonished on two separate instances about frivolous and malicious filings. The Court noted: “Petitioner
is admonished that frivolous and malicious filings by prisoners consume inordinate amounts of scarce
juridical resources and pose a burden on legitimate complaints. See Holloway v. Hornsby, 23 F.3d 944 (5th
Cir. 1994). Repeated frivolous filings in a particular case can slow the review process and delay the Court
in reaching a decision on the merits.” No. 1:17-CV-l 18-C, ECF Nos. 34 and 40. The Court was then forced
to bar Wooten from filing any new motions or pleadings in [that] cause without prior leave of court. Order,
No. 1:17-CV-l 18-C, ECF No. 40 (August 7, 2018).

-3-

Additional material
from this filing is
available in the
Clerk's Office.

